      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                      Washington, D.C. 20201




August 5, 2010

TO:           Donald Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of New York State’s Compliance With the Prompt Pay Requirements for
              the Increased Federal Medical Assistance Percentage Under the American
              Recovery and Reinvestment Act of 2009 (A-02-09-01037)


Attached, for your information, is an advance copy of our final report on New York State’s
compliance with the prompt pay requirements for the increased Federal medical assistance
percentage under the American Recovery and Reinvestment Act of 2009. We will issue this
report to the New York State Department of Health within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01037.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
August 6, 2010

Report Number: A-02-09-01037

Richard F. Daines, M.D.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New York State’s Compliance With the Prompt
Pay Requirements for the Increased Federal Medical Assistance Percentage Under the
American Recovery and Reinvestment Act of 2009. We will forward a copy of this report to the
HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-09-01037 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure

HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF NEW YORK STATE’S
      COMPLIANCE WITH THE
PROMPT PAY REQUIREMENTS FOR THE
   INCREASED FEDERAL MEDICAL
 ASSISTANCE PERCENTAGE UNDER
  THE AMERICAN RECOVERY AND
    REINVESTMENT ACT OF 2009


                        Daniel R. Levinson
                         Inspector General

                           August 2010
                          A-02-09-01037
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act will provide
an estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs. Section 5000 of the Recovery Act provides these increases to help avert cuts in health
care provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. For Federal
fiscal year 2009, these temporary FMAP increases ranged from 6.2 to nearly 14 percentage
points, depending on State unemployment rates.

Pursuant to section 5001(f)(2)(A) of the Recovery Act, effective February 18, 2009, a State is not
eligible for the increased FMAP for any claim received from a practitioner on days during any
period in which the State did not comply with prompt pay requirements referenced at section
1902(a)(37)(A) of the Act. Pursuant to section 5001(f)(2)(B) of the Recovery Act, effective
June 1, 2009, these requirements also apply to claims submitted by hospitals and nursing
facilities. In this report, we refer to these subsections as the prompt pay requirement for
receiving the increased FMAP under the Recovery Act.




                                                1
Prompt Pay Requirements

Section 1902(a)(37)(A) of the Act and implementing regulations (42 CFR § 447.45) specify
prompt pay requirements. Pursuant to 42 CFR § 447.45(d)(2), a State Medicaid agency “must
pay 90 percent of all clean claims from practitioners, who are in individual or group practice or
who practice in shared health facilities, within 30 days of the date of receipt.” Pursuant to
42 CFR § 447.45(d)(3), a State Medicaid agency must pay 99 percent of such claims within
90 days of the date of receipt. 1, 2

Federal regulations define a clean claim as a claim that can be processed without obtaining
additional information from the provider or a third party. Clean claims do not include claims
from a provider that is under investigation for fraud or abuse or claims under review for medical
necessity (42 CFR § 447.45(b)). 3 CMS’s guidance defines the date of receipt as the actual date
a State receives a claim from a provider. CMS further defines a claim’s payment date as either
the payment check date, the date of an electronic funds transfer payment, the date that a payment
is mailed, or the date on the Explanation of Benefits or denial notice for denied claims (CMS’s
guidance, Appendix, section B).

New York State Medicaid Program

In New York, the Department of Health (State agency) administers the Medicaid program and
oversees compliance with Federal and State requirements. The State agency uses the Medicaid
Management Information System (MMIS), a computerized payment and information reporting
system, to process and pay Medicaid claims. Since 2000, the State agency has contracted with
Computer Science Corporation (CSC) to operate the MMIS and serve as the fiscal agent for the
State’s Medicaid program.

To ensure compliance with prompt pay requirements, the State agency’s contract with CSC
includes prompt pay provisions. Pursuant to its contract with the State agency, CSC must
adjudicate 90 percent of all claims within 30 calendar days of receipt and 99 percent of all claims
within 90 days of receipt.

For the period January 1 through June 30, 2009, the State agency received 125,618,625 clean
claims from applicable providers and made payments for these claims totaling approximately
$12.8 billion.4
1
    In general, a State Medicaid agency must pay all other claims within 12 months of the date of receipt.
2
 Because the Recovery Act was enacted on February 17, 2009, the first compliance date with respect to the prompt
pay requirements for receiving the increased FMAP under the Recovery Act for practitioner claims was February
18, 2009. Therefore, claims received 30 days before this date (on January 20, 2009) were the first claims subject to
30-day requirement, and claims received 90 days before this date (on November 21, 2008) were the first claims
subject to the 90-day requirement (CMS’s State Medicaid Director letter No. 09-004 (CMS’s guidance)).
3
    Throughout our report, “claims” refers to clean claims as defined pursuant to 42 CFR § 447.45(b).
4
 Pursuant to CMS guidance, the prompt pay requirements for receiving the increased FMAP under the Recovery
Act apply to claims received from applicable providers—practitioners, nursing facilities, and hospitals—not to
claims from managed care organizations.

                                                            2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with the prompt pay
requirement for receiving the increased FMAP.

Scope

We reviewed all Medicaid claims received by the State agency from applicable providers on
each day for the 6-month period January 1 through June 30, 2009, and payments made to the
providers for claims received during this period.

For receipt dates before June 1, 2009, we reviewed the applicable practitioner claims. For
receipt dates of June 1, 2009, or later, we reviewed the applicable practitioner, hospital, and
nursing facility claims.

We did not assess the State agency’s overall internal control structure. We limited our review of
internal controls to those applicable to our objective, which did not require an understanding of
all internal controls over the Medicaid program. We reviewed the State agency’s procedures for
ensuring compliance with the prompt pay requirement for receiving the increased FMAP.

We performed our fieldwork at the State agency’s offices in Albany, New York, and at CSC’s
office in Rensselaer, New York, from October 2009 through March 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State Medicaid laws, regulations, and guidance;

   •    met with State agency officials to gain an understanding of the State agency’s policies
        and procedures for ensuring compliance with prompt pay requirements;

   •    obtained and reviewed the prompt pay provisions of the State agency’s contract with
        CSC;

   •    obtained from the State’s MMIS the population of all claims received for each day during
        the period January 1 through June 30, 2009;

   •    validated the population of claims received by selecting a test week and verifying from
        the State’s records that the number of claims received equaled the number of claims in
        the MMIS data for that week; and

   •    determined, for each date of receipt, whether the State agency complied with the prompt
        pay requirement for receiving the increased FMAP by:

                                                 3
             o determining the number of clean claims received;

             o determining, for each claim, the date of payment or denial;

             o computing, for each claim, the number of days between the date of receipt and the
               date of payment or denial;

             o determining the total number of claims paid or denied within 30 days and within
               90 days; and

             o calculating the percentage of claims paid or denied within 30 days and within
               90 days. 5

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                          RESULTS OF REVIEW

The State agency complied with the prompt pay requirement for receiving the increased FMAP.
Specifically, the State agency paid 100 percent of the 125,618,625 clean claims it received from
applicable providers within 30 days of the date of receipt. Therefore, we have no
recommendations.




5
 For each receipt date, we calculated these percentages by dividing the number of claims paid or denied within the
specified period by the total claims received on that date.

                                                         4
